June 2009
Report No. AUD-09-015


FDIC’s Brokered Deposit Waiver
Application Process




            AUDIT REPORT
                                                    Report No. AUD-09-015                                                            June 2009

                                                    FDIC’s Brokered Deposit Waiver Application
                                                    Process
   Federal Deposit Insurance Corporation


Why We Did The Audit                                Audit Results

Brokered deposits (BD) are receiving                DSC has established a BD waiver application process consistent with the FDIC Rules and
considerable attention because of recent bank       Regulations. The process includes a review of applications by DSC’s regional offices (RO)
failures involving excessive reliance by FDIC-      and the Risk Management and Applications Section in Washington, D.C. (WO). The process
insured financial institutions on such deposits     also includes monitoring to identify when an institution is required to submit a BD waiver
to support aggressive asset growth. A BD is         application and specific conditions tied to an approved waiver. To assess controls in the
any deposit that is obtained, directly or           process, we reviewed a sample of 19 BD waiver applications out of the 70 BD applications
indirectly, from or through the mediation or        submitted from January 1, 2008 to August 15, 2008. Out of those 19 sampled waiver
assistance of a deposit broker. On February 27,
2009, FDIC staff reported to the FDIC’s Board
                                                    applications, 8 were withdrawn or returned, and 11 were approved by the FDIC.
of Directors that BD waiver application activity
was increasing and was expected to continue.        DSC generally processed BD waiver applications in accordance with established controls.
                                                    Specifically, DSC reviewed applications for completeness before acceptance; entered
An institution’s ability to solicit and accept      information into the FDIC’s application tracking system; prepared a Summary of
BDs is linked to its capital level as provided in   Investigation, which serves to document the Case Manager’s analysis of the application; and
the Federal Deposit Insurance (FDI) Act and         contacted the primary federal regulator to discuss the waiver request. However, the FDIC’s
FDIC Rules and Regulations. In general,             procedures need to be clarified with regard to a written acknowledgement of the application
insured depository institutions that are            in certain circumstances. Also, for the 11 approved applications we sampled, the approval
considered to be adequately capitalized
(including well capitalized institutions subject
                                                    letters for 8 applications did not clearly state that the waiver may be revoked by the FDIC at
to certain supervisory directives) may not          any time by written notice to the institution—which is a condition of approval. The ROs are
accept, renew, or roll over any BD unless the       taking steps to incorporate that condition into their approval letter template. In addition,
institution has applied for and has been granted    three approval letters did not include the nonstandard conditions that the Case Manager
a waiver by the FDIC.                               Procedures Manual states should normally be included in the letter, such as limits on the
                                                    volume, rates, and maturities of new BDs. Ensuring that conditions for approvals are clearly
The objective of this audit was to assess the       stated will help to facilitate compliance with established controls in the BD waiver
FDIC’s BD waiver application process for            application process.
FDIC-insured financial institutions. The scope
of our audit did not include assessing the merits
of the FDIC’s decisions to grant waivers or the
                                                    The WO review was instituted in the first quarter of 2008 to provide an additional level of
extent to which the FDIC ensures that               control and to facilitate reporting to senior FDIC management officials, including the
institutions comply with the conditions of          Chairman, on BD waiver requests. However, formal written procedures for the WO review
approval for BD waivers.                            process have not yet been established. Consequently, we found that the ROs are preparing
                                                    and submitting a variety of documents to the WO. The lack of formal written procedures to
Background                                          clearly define the information needed for the WO review and when the RO should submit
                                                    such information to the WO could affect the consistency and sufficiency of the WO review
BDs have been used by insured financial             and cause delays in the application process. In addition, the decision to discontinue
institutions for years as a wholesale funding       expedited processing was not publicly announced. Such an announcement would have added
source to support asset growth. When properly       transparency to the process. Furthermore, institutions submitted only 2 of the 19 applications
managed, BDs offer institutions a number of         in our sample through FDICconnect. Promoting wider use of FDICconnect for this
important benefits such as ready access to          transaction could increase the efficiency of the process by helping to ensure institutions
funding. However, BDs can be a higher-cost          submit complete BD waiver applications and allowing the application to be sent
and more volatile funding source and, as such,
                                                    automatically to the application tracking system from FDICconnect once the RO accepts the
present potential liquidity, earnings, and other
risks that must be properly managed.
                                                    application. These improvements would help ensure that information about the number and
                                                    nature of applications is immediately available to the WO. Given the increase in BD waiver
In 2005, the FDIC modified its FDICconnect          application activity, strengthening these controls in the BD waiver application process will
system to permit institutions to electronically     help ensure the consistency and sufficiency of the process.
submit applications for BD waivers. The
FDIC’s Division of Supervision and Consumer
Protection (DSC) has been delegated
                                                    Recommendations and Management Response
responsibility to waive the prohibition on the
acceptance, renewal, or rollover of BDs if it       We recommended that the Director, DSC: (1) clarify its policies and procedures related to
determines that the waiver does not cause an        the acknowledgement provision in the FDIC Rules and Regulations and the conditions to be
unsafe or unsound banking practice (i.e., undue     included in a BD waiver approval letter, (2) establish formal written procedures for the WO
risk to the institution). Specifically, DSC         review of BD waiver applications, (3) determine whether a public announcement is
regional Case Managers are responsible for          warranted with regard to the decision to temporarily suspend expedited processing, and
reviewing and processing BD waiver                  (4) further encourage financial institutions to use FDICconnect to submit BD waiver
applications submitted by insured financial         applications.
institutions in accordance with the procedures
in the Case Manager Procedures Manual.
                                                    The FDIC agreed with our recommendations and is taking responsive action.

  To view the full report, go to www.fdicig.gov/2009reports.asp
Federal Deposit Insurance Corporation                                                                  Office of Audits
3501 Fairfax Drive, Arlington, VA 22226-3500                                              Office of Inspector General




DATE:                                          June 5, 2009

MEMORANDUM TO:                                 Sandra L. Thompson, Director
                                               Division of Supervision and Consumer Protection



                                               /Signed/
FROM:                                          Russell A. Rau
                                               Assistant Inspector General for Audits

SUBJECT:                                       FDIC’s Brokered Deposit Waiver Application Process
                                               (Report No. AUD-09-015)


The subject final report is provided for your information and use. Please refer to the
Executive Summary, included in the report, for the overall audit results. Our evaluation of
your response has been incorporated into the body of the report. The recommendations are
resolved but will remain open until we have determined that agreed-to corrective action has
been completed and is responsive.

If you have questions concerning the report, please contact me at (703) 562-6350 or
Mark F. Mulholland, Deputy Assistant Inspector General for Audits, at (703) 562-6316. We
appreciate the courtesies extended to the audit staff.

Attachment

cc: James H. Angel, Jr., OERM
Contents                                                Page


BACKGROUND                                                2

AUDIT OBJECTIVE                                           7

AUDIT RESULTS                                             8

RECOMMENDATIONS                                          21

CORPORATION COMMENTS AND OIG EVALUAITON                  22

APPENDICES
  1. OBJECTIVE, SCOPE, AND METHODOLOGY                   23
  2. CORPORATION COMMENTS                                26
  3. MANAGEMENT RESPONSE TO RECOMMENDATIONS              27
  4. ACRONYMS USED IN THE REPORT                         28

TABLES
  1. Prompt Corrective Action Capital Categories          4
  2. OIG Sample Results                                  12
  3. Various Documents Submitted by the ROs to the WO    19
  4. OIG Sample Information                              24

FIGURES
  1. Brokered Deposits in FDIC-Insured Institutions       3
  2. BD Waiver Application Review Process                 9
FDIC’s Brokered Deposit Waiver
     Application Process




            1
Background
•   A brokered deposit (BD) is any deposit that is obtained, directly or indirectly, from or through a deposit
    broker. Deposit brokers have traditionally provided intermediary services matching yield-focused investors
    with financial institutions offering potentially higher-yielding FDIC-insured deposits than would be
    available in the investor’s local market.

•   FDIC-insured financial institutions have used BDs since the early 1950s as a wholesale funding source to
    support asset growth. Rates paid by institutions on BDs are often higher than those paid in local markets
    but can be lower than the cost of unsecured wholesale market funding due to FDIC insurance coverage
    eliminating credit risk. Thus, BDs can offer institutions an attractive source of liquidity.

•   Core deposits are typically lower-cost funding sources than BDs. In addition, the cost of core deposits
    often lags behind other funding sources during periods of rising interest rates. Further, core deposits tend to
    be stable over time because customers making these deposits typically have borrowing and other
    relationships with the institution. Conversely, customers making non-core deposits, including BDs, are
    generally focused on rates and may not have any other relationship with the institution. Thus, BDs can be a
    more volatile, higher-cost source of funding than core deposits and can present increased asset quality,
    liquidity, earnings, and interest rate risk.

•   When properly managed, BDs offer institutions a number of important benefits. For example, BDs allow
    institutions ready access to funding in national markets when deposit growth in the local market lags
    planned asset growth or otherwise limits investment opportunities. However, BDs can facilitate faster asset
    growth than can be prudently managed by the institution. In addition, the higher cost of BDs can result in
    the institution pursuing higher returns on assets. Together, these factors can increase risk related to asset
    quality.


                                                  2
Background
•   BDs are receiving considerable attention because of recent bank failures involving excessive reliance on
    such deposits to support rapid loan growth. As previously discussed, BDs can introduce asset quality,
    earnings, liquidity, and interest rate risk in insured depository institutions. Moreover, BD levels are a factor
    in determining deposit insurance assessment rates for certain institutions pursuant to changes in the FDIC
    regulation regarding the risk-based assessment system, effective April 1, 2009.

•   As depicted in Figure 1, BDs grew from approximately $120 billion to approximately $765 billion from
    December 31, 1999 to December 31, 2008.


                          Figure 1: Brokered Deposits in FDIC-Insured Institutions

                                                          1999-2008
                                                         ($ in billions)

                                                                                                       $765
                       $800
                                                                                         $523   $574
                       $600                                           $423     $482
                                                    $285     $329
                       $400          $220   $261
                              $120
                       $200
                        $0
                              1999   2000   2001    2002     2003     2004     2005      2006   2007   2008
                                                   Source: FDIC Statistics on Banking.




                                                              3
    Background
•   According to section 29, Brokered Deposits, of the
    Federal Deposit Insurance Act (FDI Act), institutions that
    are not well capitalized may not accept brokered deposits,
    but under section 29, the FDIC may approve waivers for
    adequately capitalized institutions.
                                                                    Table 1: Prompt Corrective Action Capital Categories
•   An institution’s ability to solicit and accept BDs is linked                             Total Risk-   Tier 1 Risk-
    to its capital level, as provided in the regulations                                    Based Capital Based Capital               Leverage
    implementing section 38, Prompt Corrective Action, of the       Capital Category                                                   Capital
    FDI Act. Table 1 summarizes the capital categories              Well capitalized      10 percent or        6 percent or        5 percent or
    defined in the pertinent section of the FDIC Rules and                                more                 more                more
    Regulations.                                                    Adequately            8 percent or         4 percent or        4 percent or
                                                                    capitalized           more                 more                more
                                                                    Undercapitalized      Less than 8          Less than 4         Less than 4
•   In general, a well capitalized insured depository institution                         percent              percent             percent
    may solicit and accept, renew, or roll over any BD without      Significantly         Less than 6          Less than 3         Less than 3
    restriction, unless the institution is subject to certain       undercapitalized      percent              percent             percent
    supervisory directives, in which case, the institution is       Critically under-     An institution is critically undercapitalized if its
    considered adequately capitalized.                              capitalized           tangible equity is 2 percent or less regardless of the
                                                                                          institution’s other capital ratios.
                                                                    Source: Section 325.103 of the FDIC Rules and Regulations.
•   An adequately capitalized insured depository institution
    may not accept, renew, or roll over any BD unless it has
    applied for and has been granted a waiver by the FDIC.

•   An undercapitalized, significantly undercapitalized, or
    critically undercapitalized insured depository institution
    may not accept, renew, or roll over any BD.




                                                     4
Background
•   Section 29, Brokered Deposits, of the FDI Act                    Rules for Expedited and Standard Processing
    contains rules for BDs, including waivers for                             of BD Waiver Applications
    BDs.
                                                          Expedited Processing for Eligible Depository Institutions

•   Section 303.243 of the FDIC Rules and                 •   An application filed by an eligible depository institution will be
    Regulations defines procedures for filing BD              acknowledged and receive expedited processing, unless the applicant is
                                                              notified in writing to the contrary and provided a basis for that decision.
    waiver applications, including requirements for
    expedited and standard processing of such             •   An application processed under expedited procedures will be deemed
    applications.                                             approved 21 days after the FDIC’s receipt of a substantially complete
                                                              application, absent contrary notice.

                                                          •   The FDIC may remove an application from expedited processing if certain
•   Part 337 of the FDIC Rules and Regulations                conditions exist or the appropriate Regional Director determines that a filing
    contains substantive requirements for BD waiver           presents a significant supervisory concern or other good cause exists for
                                                              removal.
    applications. Specifically, it states that the FDIC
    may waive the prohibition for an adequately           •   Factors for determining whether an institution is eligible for expedited
                                                              processing include supervisory ratings and whether the institution is subject
    capitalized institution to accept, renew, or roll         to some type of enforcement or administrative action.
    over BDs if the FDIC determines that such
    acceptance, renewal, or rollover does not             Standard Processing
    constitute an unsafe or unsound banking               •   For those filings that are not processed pursuant to expedited procedures, the
    practice. The regional offices (RO) of the                FDIC will provide the applicant with written notification of the final action
                                                              as soon as the decision is rendered.
    FDIC’s Division of Supervision and Consumer
    Protection (DSC) have the delegated authority to      •   The FDIC’s guideline for standard processing of a BD waiver application is
    approve waiver applications.                              30 days.


                                                          Source: Sections 303.243(e) and (f), 303.2(r), and 303.11(c)(2) of the FDIC
                                                          Rules and Regulations and sections 20 and 40 of the Case Manager Procedures
                                                          Manual.



                                                   5
    Background
•    Generally, the FDIC’s concerns in reviewing BD
     waiver applications pertain to the institution’s
     liquidity risk, interest rate risk, earnings risk and     Interest Rate Restrictions for Adequately Capitalized
                                                              Institutions with Waivers to Accept Brokered Deposits
     in particular, the institution’s use of BDs to
     support rapid growth.                                   Any adequately capitalized insured depository institution that has
                                                             been granted a waiver to accept, renew, or roll over a brokered
                                                             deposit may not pay an effective yield on any such deposit which, at
•    Section 337.6 of the FDIC Rules and Regulations         the time that such deposit is accepted, renewed, or rolled over,
     describes restrictions on the interest rates that       exceeds by 75 basis points:
     institutions may pay for such deposits.                 a.   The effective yield paid on deposits of comparable size and
                                                                  maturity in such institution’s normal market area for deposits
                                                                  accepted from within its normal market area; or
•    On February 27, 2009, FDIC staff reported to the        b.   The national rate paid on deposits of comparable size and maturity
     FDIC’s Board of Directors that BD waiver                     for deposits accepted outside the institution’s normal market area.
     application activity was increasing and was                  The national rate shall be:
                                                                       (1) 120 percent of the current yield on similar maturity of
     expected to continue increasing.                                      U.S. Treasury obligations; or
                                                                       (2) in the case of any deposit at least half of which is
                                                                           uninsured, 130 percent of such applicable yield.
•    In about the last 5 years, the FDIC has received
     approximately 240 BD waiver applications—70             Source: Section 337.6(b)(ii) of the FDIC Rules and Regulations. The
                                                             FDIC issued a final rule, effective January 1, 2010, that defines
     of these applications were received from                nationally prevailing deposit rates as a direct calculation of national
     January 1, 2008 through August 15, 2008.                averages, as computed and published by the FDIC based on data
     According to DSC officials, the FDIC approved           available to it.
     26 of the 70 waiver applications. The remaining
     applications were either returned to or withdrawn
     by the institution.




                                                     6
Audit Objective
•   The audit objective was to assess the FDIC’s BD waiver application process for FDIC-insured financial
    institutions.

•   To evaluate the BD waiver application review process, we reviewed a non-statistical sample of 19 of the 70
    BD waiver applications submitted from January 1, 2008 through August 15, 2008. As part of our review,
    we used information in DSC’s Virtual Supervisory Information on the Net Application Tracking System
    (ViSION AT), which is the official system of record for all applications submitted to the FDIC.

•   The scope of this audit did not include assessing the merits of the FDIC’s decisions to grant waivers or the
    extent to which the FDIC ensured that institutions complied with the terms of BD waivers.

•   We conducted this performance audit in accordance with generally accepted government auditing
    standards. Appendix 1 of this report discusses our audit objective, scope, and methodology in detail.




                                                 7
Audit Results
 Brokered Deposit Waiver Application Process

 •   The FDIC has established a process to review BD waiver applications submitted by FDIC-insured
     financial institutions that is generally consistent with the FDIC Rules and Regulations. Nevertheless,
     opportunities exist to strengthen controls and ensure that the application review process is as efficient
     as possible.

 •   The BD waiver application process includes:

      –   monitoring when institutions are required to submit a request for a waiver;

      –   submitting a letter application by the institution;

      –   reviewing applications at the RO level, that is, by DSC Case Managers, in conjunction with RO
          management;

      –   conducting a “parallel” review by the Risk Management and Applications Section in Washington,
          D.C. (WO);

      –   approving application waiver requests in writing; and

      –   monitoring specific conditions tied to the BD waiver.

                                                8
Audit Results
•   DSC RO Case Managers review and evaluate           Figure 2: The BD Waiver Application Review Process
    BD waiver applications filed by institutions                                                              RO Review                   WO Review
                                                                                                            Case                          WO reviews
    within their caseload to determine whether the                             Bank submits
                                                                                                            managers                      information
                                                                               waiver request
    application should be approved.                        START                                            perform review                provided by
                                                                                 to the RO
                                                                                                            and analysis of               the RO and
                                                                                                            the application               provides
                                                                                                                                          input for
                                                                                                                                          approval
•   RO management reviews and approves (if
    appropriate) the Case Manager’s
    recommendation. Figure 2 illustrates the key
                                                                 Monitoring Process                                                     Approval Letter
    aspects of the BD waiver application review            •   Risk Management                                             a
                                                                                                                                         RO sends BD
                                                               examinations and                          • Completes SOI                waiver approval
    process.                                                   visitations                               • Maintains                   letter to the bank
                                                           •   Call Reports                                ViSION ATa                  and other federal
                                                           •   ROMIG reportsb and                        • Consults with                   regulator (if
                                                           •   Institution self-notification               federal and state               applicable)
•   DSC’s Case Manager Procedures Manual                                                                   banking
                                                                                                           agencies
    defines the Case Manager’s responsibilities for
    reviewing and processing waiver applications as:

     –   Ensuring that BD waiver applications
         contain the eight components defined by       Source: OIG analysis.
                                                       a
                                                        A Summary of Investigation (SOI) and DSC’s ViSION AT are discussed in detail later in this report.
         the FDIC Rules and Regulations                b
                                                        Regional Office Management Information Groups (ROMIG) are in each region and aid in the identification
                                                       and management of risk through the development, implementation, and maintenance of monitoring systems and
         section 303.243(c) (see page 10).             the preparation of special studies, analyses, and reports for regional management.



     –   Notifying eligible institutions in writing
         that an application is removed from
         expedited processing and the basis for that
         decision, when required (see page 5).


                                                 9
Audit Results
   –   Ensuring that ViSION AT records are
       created and updated promptly.                           Content Requirements for the BD Waiver
                                                                         Application Letter
   –   Consulting with the primary federal            The application shall contain the following:
       regulator and any applicable state regulator
                                                      1.   The time period for which the waiver is requested.
       to obtain their views on the application,      2.   A statement of the policy governing the use of brokered deposits
       including the imposition of conditions.             in the institution’s overall funding and liquidity management
                                                           program.
                                                      3.   The volume, rates, and maturities of the brokered deposits held
   –   Completing the SOI to document the                  and anticipated during the waiver period sought, including any
                                                           internal limits placed on the terms, solicitation, and use of
       analysis of the application and the                 brokered deposits.
       conclusion as to whether or not the waiver     4.   How brokered deposits are costed and compared to other funding
       should be approved.                                 alternatives and how they are used in the institution’s lending and
                                                           investment activities, including a detailed discussion of asset
                                                           growth plans.
                                                      5.   Procedures and practices used to solicit brokered deposits,
   –   Preparing the waiver approval letter.               including an identification of the principal sources of such
                                                           deposits.
                                                      6.   Management systems overseeing the solicitation, acceptance, and
                                                           use of brokered deposits.
                                                      7.   A recent consolidated financial statement with balance sheet and
                                                           income statements.
                                                      8.   The reasons the institution believes its acceptance, renewal, or
                                                           rollover of brokered deposits would pose no undue risk.

                                                      Source: Section 303.243(c) of the FDIC Rules and Regulations.




                                               10
Audit Results
•   However, the Case Manager Procedures Manual does not
    clearly address how BD waiver applications for eligible
    institutions “will be acknowledged in writing by the FDIC”                  Written Communication Provisions
                                                                              Case Manager Procedures Manual for BD
    according to Section 303.243(e) of FDIC Rules and
                                                                                       Waiver Applications
    Regulations.

     –   The acknowledgement requirement of section 303.243(e)            •    If an application is considered substantially
                                                                               incomplete, the application should be returned with a
         does not clearly specify what is to be acknowledged or                letter outlining the deficiencies.
         when acknowledgement must be provided.
                                                                          •    If the application is deemed substantially complete, an
                                                                               acceptance letter should be prepared if it is necessary
     –   The Case Manager Procedures Manual has provisions                     to notify the applicant of the acceptance date. In
         regarding “acceptance letters” and “approval letters” that            cases where the application is being acted upon in a
         may be sent to the applicant, depending on the                        very short time period, as in the case with expedited
                                                                               processing procedures, a separate acceptance letter
         circumstances, but does not equate either letter with the             is unnecessary.
         acknowledgement requirement of the regulations.
                                                                          •    If a filing is removed from expedited processing, the
                                                                               applicant will be informed in writing of the reason(s).
•   By revising the Case Manager Procedures Manual to address
    the acknowledgement requirements of section 303.243(e), the           •    For applications other than those receiving expedited
    FDIC procedures will be designed to help ensure compliance                 processing, an acceptance letter may be prepared if
                                                                               deemed necessary.
    with that section. (We note that Part 303, which includes the
    aforementioned section, addresses various other types of              •    A letter of approval should be prepared and sent to an
    applications and includes acknowledgement requirements for                 institution with copies sent to the appropriate federal
    those other applications.) Also, a waiver acknowledgement                  or state banking agencies.
    could be beneficial in helping institutions assess their sources of   Source: Sections 20 and 40 of the Case Manager
    funding.                                                              Procedures Manual. Boldface added for emphasis.



                                                  11
Audit Results
Regional Office Review
                                                         Table 2: OIG Sample Results

•   We analyzed a non-statistical sample of 19 BD            Key Process Step               Audit Conclusion
    waiver applications filed with the FDIC during the   The Case Manager
                                                         completed the required data                   X
    period January 1, 2008 through August 15, 2008       fields in ViSION AT.               See page 16 for details.
    and found that the ROs generally processed the       The Case Manager
    waiver applications in accordance with established   consulted with the primary                    9
    procedures, including applicable timeframes.         federal regulator.
                                                         The Case Manager                              9
    However, we determined that controls could be        completed the SOIs.
    strengthened in two process areas as noted in        The Case Manager prepared                     X
    Table 2.                                             the approval letter.               See page 13 for details.
                                                         The application was                           9
                                                         processed within applicable   (Applications in the sample were
•   Of the 19 BD waiver applications sampled, 8 were     timeframes for expedited or processed in 32 days on average.)
    withdrawn or returned because the institution        standard processing.
                                                         Source: OIG analysis of SOIs, BD waiver application packages,
    either did not substantially complete the            and data in ViSION AT for the applications sampled.
    application or did not agree with the conditions
    imposed for the waiver approval. The 11 remaining    9    For the sampled item, the process was generally followed.
    applications were approved by the FDIC.                   Any exceptions noted were considered to be insignificant
                                                              and/or were adequately explained by the RO.
                                                         X    Controls in this area could be strengthened.




                                                12
    Audit Results
•    While the Case Manager Procedures Manual
     provides the conditions for approving BD waiver                                  Conditions for Approval
     applications, the manual does not explicitly state
     that the approval letter should include the two        A waiver issued pursuant to this section shall:
     conditions of approval described in bullets at the     •   Be for a fixed period, generally no longer than 2 years, but may be extended
     right. The manual is clearer with regard to the            upon refiling; and
     non-standard conditions that need to be included in    •   May be revoked by the FDIC at any time by written notice to the institution.
     the approval letter.
                                                            The following non-standard conditions will normally be included in
                                                            approval letters provided the applicant has agreed to them in writing:
•    For the approval letters we reviewed, the language
                                                            1. Volume, rates, and maturities of newly issued BDs will be limited to the
     pertaining to the conditions for approval varied          amounts projected in the application, or more conservative levels
     among the ROs.                                            determined to be appropriate by the Regional Director.

                                                            2. A statement that, in granting a waiver, the FDIC has relied upon the
      –   Notably, approval letters for 8 of the 11            information and statements provided by the applicant, and any material
          approved waiver applications in our sample           change in the institution’s condition or representation may result in
                                                               termination of the waiver. The institution will be responsible for notifying
          did not contain the condition that the waiver        the FDIC of any material change.
          may be revoked by the FDIC at any time by
          written notice to the institution, which is one   3. The institution shall maintain and have readily available for the examiner
          of the two conditions for approval. In two           review, records showing that its acceptance of BDs met the rate limits
                                                               imposed by section 337.6 and section 29 of the FDI Act.
          cases, RO officials responded that they
          would update their approval letter templates      4. Any waiver granted will expire immediately should the institution become
          to include this language.                            “undercapitalized” as the term is defined by its appropriate federal banking
                                                               agency.

                                                            Source: Section 40 of the Case Manager Procedures Manual.




                                                    13
Audit Results

     –   Three approval letters did not include the non-standard conditions listed in the Case Manager
         Procedures Manual. RO officials stated that the non-standard conditions were inadvertently omitted
         from two of the approval letters, but RO staff had discussed the non-standard conditions with the two
         institutions. RO officials advised us that they had determined that the non-standard conditions were
         not appropriate for the circumstances involving the remaining approval letter.

•   Ensuring that applicable conditions for approvals are clearly stated in approval letters will help facilitate
    compliance with established controls in the BD waiver process.




                                                  14
Audit Results
•   Generally, ROs monitor the need for a BD           Sample Notification Letter to an Institution with Regard to Its Capital
    waiver through:                                            Category for Purposes of Prompt Corrective Action


                                                     Based on a preliminary analysis of your September 30, 20XX, Reports of
     –   Risk management examinations and            Condition and Income, we calculate your key capital ratios as follows:
         visitations.
                                                               Total Risk-Based Capital Ratio                     %

     –   Quarterly Consolidated Reports of                     Tier l Risk-Based Capital Ratio                    %
         Condition and Income (Call Report).                   Tier 1 Leverage Ratio                              %

                                                     It has been determined that your bank falls within the Adequately Capitalized
     –   Reports prepared by the ROMIG               capital category, due to the Total Risk-Based Capital Ratio, and was deemed to
                                                     have been notified of this category on October 30, 20XX, (the deadline for filing
         (based on data in Call Reports or Thrift    the September 30, 20XX Call Report), pursuant to 12 C.F.R. §325.102(b)(1).
         Financial Reports).                         We recommend that you carefully review the restrictions concerning brokered
                                                     deposits, found in Section 29 of the FDI Act (12 U.S.C. §1831f) and Section
                                                     337.6 of the FDIC Rules and Regulations (12 C.F.R. §337.6), that apply to
     –   An institution’s self-notification.         adequately capitalized institutions.

                                                     Pursuant to Section 337.6(b) of the FDIC Rules and Regulations (12 C.F.R.
                                                     §337.6(b)), an adequately capitalized insured depository institution may not
•   When an institution’s capital level falls from   accept, renew or roll over any brokered deposits unless it has obtained a
    the well capitalized category to the             waiver of this prohibition from the FDIC. The application procedures for
                                                     requesting a brokered deposit waiver are contained in Section 303.243 of FDIC
    adequately capitalized category, the RO          Rules and Regulations (12 C.F.R. §303.243). Brokered deposits that were
    sends the institution a notification letter      previously accepted while the institution was well capitalized, as defined in
    similar to the illustration at the right.        Section 38 of the FDI Act, do not require a waiver. However, these brokered
                                                     deposits may not be renewed or rolled over until the institution has obtained a
                                                     waiver from the FDIC.


                                                     Source: Excerpt from a notification letter provided by RO officials.




                                                15
Audit Results
•   The Case Manager Procedures Manual states
    that all applications, including BD waiver               Information to be Recorded in ViSION AT
    applications, should be entered into ViSION AT
    upon receipt. The manual defines information     Requirements per Case Manager Procedures Manual
    that should be recorded in the ViSION AT             – Describe proposal sufficient to identify any
    module (see illustration at the right).                unique feature
                                                         – Describe problem areas and/or policy matters
                                                         – Specify reasons for processing delays
•   Additionally, the WO had orally specified            – Identify any non-standard conditions imposed
    information to be recorded in ViSION AT
    regarding BD waiver applications.                WO requirements

                                                         – Reason the institution is requesting a BD waiver
•   We found that the Case Managers generally            – Proposed use or purpose of the BDs
    entered information in ViSION AT as required.        – Waiver request period
    However, the Case Managers did not always            – If the waiver is for participation in the Certificate
    specify the conditions imposed for waiver              of Deposit Account Registry Service program,
    approvals.                                             name the program involved.
                                                         – Conditions of the BD waiver, including non-
                                                           standard conditions.
                                                         – Reason why the institution is not well capitalized.

                                                     Source: Section 20.1 of the Case Manager Procedures
                                                     Manual and the June 18, 2008 Risk Analysis Center
                                                     presentation entitled, BDs: Issues, Risks, and Policies.




                                                16
Audit Results
Washington Office Review
•   Because of heightened concerns about the increased use of BDs as a source of funding, the WO initiated a
    “parallel” review of BD waiver applications in the first quarter of 2008. WO officials explained that the
    review process was instituted to provide a secondary-level review and to facilitate reporting to senior FDIC
    management officials, including the Chairman, on BD waiver applications. After the WO review process
    was instituted, DSC decided to temporarily discontinue expedited BD waiver application processing of BD
    waiver applications.

•   The FDIC Rules and Regulations require that, if a filing by an eligible depository institution is removed
    from the expedited process, the FDIC will promptly provide the applicant with a written explanation. Only
    two of the 19 applications we sampled were eligible for expedited processing. One application was
    reviewed before DSC’s decision to remove applications from expedited processing and was approved under
    the 21-day expedited processing timeframe. With respect to the other application, the FDIC did not provide
    the institution with a written notification. However, RO officials told us that the institution had been
    informed of the change in the FDIC’s processes for processing BD waiver applications, and we noted
    reference to those discussions in the correspondence we reviewed.

•   The FDIC did not publicly announce its decision to temporarily discontinue expedited processing of
    brokered deposit waiver applications. Such an announcement would have added transparency to the
    process, particularly in light of potential public expectation, grounded in the FDIC’s regulations, that BD
    waiver applications submitted by eligible depository institutions would receive expedited processing.

•   The WO uses ViSION AT data to monitor and report on the status of BD waiver applications that
    institutions have submitted and ROs have accepted.


                                                 17
Audit Results
•   The WO begins its review of a BD waiver application upon receipt of a RO summary of a BD waiver
    application request. Review examiners in the WO are responsible for providing an analysis of the
    information provided by the RO and recommending whether the WO should concur with the RO’s
    determination to grant a waiver. The completed analysis is routed through the appropriate Section Chief to
    the Associate Director, Risk Management Examinations Branch, or to the Senior Deputy Director,
    Supervisory Examinations, who notifies the RO of the WO’s concurrence.

•   Procedures for the WO review process were communicated to the ROs orally through routine discussions.
    The WO process was also reiterated in June 2008 during a Risk Analysis Center presentation entitled,
    BDs: Issues, Risks, and Policies. However, DSC has not yet established formal written procedures for the
    WO review process. Consequently, the ROs are preparing and submitting a variety of documents to the
    WO. The results of our sample of submitted documents are shown in Table 3, which follows.




                                               18
Audit Results
                      Table 3: Documents Submitted by the ROs to the WO
                      Application                Type of Document
                      Included in
                         OIG        Bank              RO     Approval Email
                       Sample a Application SOI Summary Letter Summary
                           1                  9                         9
                           2         9        9                   9     9
                           3                  9                         9
                           4                  9                   9     9
                           5         9                 9
                           6         9                 9
                           7                 9b                   9

                             8                 9            9                          9
                             9                                         9
                      Source: OIG analysis.
                      a
                        Only nine of the BD waiver applications included in the OIG sample were received and
                      accepted after the WO review process was instituted.
                      b
                        The RO submitted a draft SOI to the WO.



•   While the ROs provided information to the WO for their review and concurrence of BD waiver
    applications, the information was not consistent among the ROs. For example, some ROs prepared
    separate summaries for the WO, while others submitted the completed SOIs.

•   Written procedures that define the information needed for the WO review (and when such information
    should be submitted) would help ensure that established policies and procedures are followed and
    promote a consistent, repeatable, and disciplined process. Such procedures would also allow the WO to
    more easily assess its process and create efficiencies, if needed, in the future, given the expected
    increase in the volume of activity.


                                                                 19
Audit Results
•   We also noted that financial institutions submitted only 2 of the 19 BD waiver applications in our sample
    through FDICconnect. FDICconnect is the secure Internet channel for FDIC-insured institutions to conduct
    business and exchange information with the FDIC.

•   FDICconnect has been available to financial institutions for BD waiver applications since June 28, 2005.
    The FDIC issued a Financial Institution Letter, dated July 1, 2005, encouraging institutions that had not yet
    registered for FDICconnect to do so as soon as possible so that they could benefit from the opportunities the
    system provides.

•   Further encouraging financial institutions to submit BD waiver applications through FDICconnect could
    increase the efficiency of the application process. The BD waiver application page in FDICconnect
    explains the legal requirements for requesting a waiver, defines the term brokered deposit, and requires the
    user to input the institution’s capital category at the time of submission. Additionally, the required fields in
    FDICconnect address the information institutions must submit to apply for a waiver (see page 10).

•   The use of FDICconnect would allow information in the application to be automatically uploaded to
    ViSION AT after the waiver application is accepted by the RO. The actual application and information
    about the number and nature of BD waiver applications pending would then be immediately available to the
    WO for purposes of initiating its review and management reports on BD waiver applications prepared for
    senior FDIC officials, including the Chairman.




                                                  20
Recommendations
We recommend that the Director, DSC:

1.   Clarify DSC’s policies and procedures related to BD waiver applications to:

      –   Address the written acknowledgment requirement in FDIC Rules and Regulations Part 303 related to
          applications filed by eligible institutions, including the timeframes and contents of the written
          acknowledgement.
      –   Advise the ROs about conditions to be included in an approval letter, or develop a standard template
          for approval letters to help promote compliance with established procedures.

2.   Establish formal written BD waiver application review procedures for the WO review process to ensure
     consistency and adherence to the process and for future assessment of the process. Consideration should be
     given to:

      –   formally defining specific data to be recorded in ViSION AT,
      –   defining the documents and their contents, for example, a preliminary summary or the completed SOI,
          that the ROs should submit to the WO and when that submission should occur.

3.   Determine whether it would be appropriate to make a public announcement regarding the decision to
     temporarily suspend expedited processing for eligible depository institutions.

4.   Further encourage financial institutions to use FDICconnect to submit BD waiver applications to enhance
     efficiency in the BD waiver application process.

                                                 21
Corporation Comments and OIG Evaluation
On May 21, 2009, the Director, DSC, provided a written response to the draft of this report. Management’s
response is presented in its entirety in Appendix 3. Management agreed with our findings and recommendations.

•     In response to recommendation 1, DSC agreed to issue a Regional Director Memorandum clarifying the
      procedures on the acknowledgement provision in the FDIC Rules and Regulations and the conditions to
      be included in a BD waiver approval letter.

•     In response to recommendation 2, DSC agreed to provide formal procedures for the WO review of BD
      waiver applications that reinforce the requirements in the Case Manager Procedures Manual.

•     In response to recommendation 3, DSC agreed to determine the most effective means for notifying insured
      depository institutions of the Corporation’s decision to temporarily suspend the expedited processing for
      BD waiver Applications.

•     In response to recommendation 4, DSC agreed to continue to encourage insured financial institutions to use
      FDICconnect to submit BD waiver applications. On June 2, 2009, a DSC official clarified management’s
      written response to this recommendation. The official indicated that DSC plans to include in its notification
      letters to institutions (regarding capital levels as discussed on page 15) standard language that encourages the
      use of FDICconnect when filing BD waiver applications.

A summary of management’s response to each of the report’s recommendations is in Appendix 4. DSC’s
planned actions are responsive to our recommendations. The recommendations are resolved but will remain
open until we determine that the agreed-to corrective actions have been completed and are responsive.




                                                  22
                                                                                                  APPENDIX 1

                             OBJECTIVE, SCOPE AND METHODOLOGY


Objective

      The objective of this audit was to assess the FDIC’s BD waiver application process for
      FDIC-insured financial institutions. We conducted this performance audit from August
      2008 through April 2009 in accordance with generally accepted government auditing
      standards. Those standards require that we plan and perform the audit to obtain
      sufficient, appropriate evidence to provide a reasonable basis for our findings and
      conclusions based on our audit objectives. We believe that the evidence obtained
      provides a reasonable basis for our findings and conclusions based on our audit
      objectives.


Scope and Methodology

      To address the audit’s objective, we:

       •    Reviewed relevant laws, rules, regulations, policies, procedures, guidance, and other
            controls pertaining to the BD waiver process.
       •    Interviewed FDIC officials in Washington, D.C., and RO officials in Atlanta,
            Georgia; Dallas, Texas; Chicago, Illinois; Kansas City, Kansas; Memphis,
            Tennessee; New York City, New York; and San Francisco, California.

      We focused our analysis on a non-statistical sample1 of FDIC-supervised financial
      institutions that submitted one or more applications for BD waivers during the period
      January 1, 2008 through August 15, 2008. Table 4 summarizes the universe of BD
      waiver applications received by the FDIC based on ViSION AT data, adjusted for
      applications entered in error, and the number of BD waivers we sampled.




      1
        The results of a non-statistical sample cannot be projected to the intended population by standard
      statistical methods.




                                                           23
                                                                                                   APPENDIX 1


      Table 4: OIG Sample Information
       Number of Waiver Applications Received Based on ViSION AT Data                                         79
       (January 1 - August 15, 2008)
       Less the Number of Waiver Applications Identified as Inactive per                                      9
       ViSION AT*
       Adjusted Number of Waiver Applications Received                                                        70
          Number of Financial Institutions that Submitted the 70 Waiver                                       58
          Applications
          Number of Financial Institutions Sampled                                                         19
          Percentage of Institutions Included in the Sample                                               32%
      Source: OIG analysis of data in ViSION production tables.
      * DSC officials indicated to us that inactive applications represented applications entered in error.

      We evaluated whether each sampled BD waiver application had been processed
      consistent with the FDIC Rules and Regulations and DSC’s procedures. As part of our
      analysis, we determined whether:

               • all eight elements required for the application were reviewed;
               • contact was made with other regulators, if applicable, to obtain their views on the
                 waiver applications;2
               • the SOIs were complete;
               • ViSION AT comments were complete;
               • waiver approval letters were complete;
               • applications were submitted to the WO for review and concurrence;
               • the WO provided feedback to the RO after the review; and
               • sampled applications were included on the Chairman’s weekly BD waiver report.

      The scope of this audit did not include assessing the merits of the FDIC’s decisions to
      grant waivers or the extent to which the FDIC ensures that institutions comply with the
      terms of BD waivers.


Internal Control

      To assess the relevant control activities, we identified the processes related to the BD
      waiver application process. These controls included policies and procedures contained in
      the Case Managers Procedures Manual.




      2
        As part of the BD waiver review process, the FDIC provides notice to the depository institution’s
      appropriate federal banking agency and any state regulatory agency that a request for a BD waiver has been
      filed and will consult with the agency or agencies prior to taking action on the institution’s request.


                                                            24
                                                                                     APPENDIX 1


Reliance on Computer-processed Information

      For purposes of the audit, we did not rely on computer-processed information to support
      our significant findings, conclusions, and recommendations. Our assessment centered on
      evaluating both the RO and WO review process. We did, however, rely on information
      in ViSION AT in order to identify the universe of applications submitted during the
      period January 1, 2008 through August 15, 2008.


Performance Measurement

      We reviewed annual performance plans and FDIC strategic plans to identify goals,
      objectives, and results and determine whether the Corporation has (1) established
      quantifiable performance measures and (2) developed and analyzed data to assess
      program, project, or function performance related to its efforts to identify risk in those
      institutions involved in BD waiver applications.

      We determined that the FDIC’s 2005-2010 Strategic Plan, 2008 Annual Performance
      Plan, 2008 Corporate Performance Objectives, and 2007 Annual Report had no specific
      information related to our objective.


Compliance With Laws and Regulations

      We reviewed applicable laws and regulations related to the FDIC’s BD waiver
      application process. We found no instances where the FDIC was not in compliance with
      applicable laws and regulations. However, as mentioned in the report, we identified
      certain procedures that should be revised so as to clarify the intent of Part 303 of FDIC
      Rules and Regulations regarding acknowledgement of applications for eligible depository
      institutions.

      We assessed the risk of fraud and abuse related to the audit objective in the course of
      evaluating audit evidence.




                                                   25
                       APPENDIX 2

CORPORATION COMMENTS




         26
                                                                                                       APPENDIX 3
                        MANAGEMENT RESPONSE TO RECOMMENDATIONS


This table presents the management response on the recommendations in our report and the status of
the recommendations as of the date of report issuance.

Rec.   Corrective Action: Taken or                     Expected            Monetary       Resolved:a       Open or
No.               Planned                           Completion Date        Benefits       Yes or No        Closedb
 1   DSC will issue a Regional                           09/30/09            $0              Yes            Open
          Director Memorandum, clarifying
          procedures on the
          acknowledgement provision in the
          FDIC Rules and Regulations and
          the conditions to be included in a
          BD waiver approval letter.
    2     DSC will provide formal                        09/30/09              $0             Yes            Open
          procedures for the WO review of
          BD waiver applications that
          reinforce the requirements in the
          Case Manager Manual. These
          procedures will be included in the
          same Regional Director
          Memorandum referenced in
          recommendation 1.
    3     DSC will determine the most                    09/30/09              $0             Yes            Open
          effective means to notify insured
          depository institutions of the
          decision to temporarily suspend
          the expedited processing for BD
          waiver applications.
    4     DSC will continue to encourage                 09/30/09              $0             Yes            Open
          insured financial institutions to
          use FDICconnect to submit BD
          waiver applications.

a
    Resolved – (1) Management concurs with the recommendation, and the planned, ongoing, and completed
                    corrective action is consistent with the recommendation.
              (2) Management does not concur with the recommendation, but alternative action meets the intent
                   of the recommendation.
              (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary
                   benefits are considered resolved as long as management provides an amount.
b
  Once the OIG determines that the agreed-upon corrective actions have been completed and are responsive to the
recommendations, the recommendations can be closed.




                                                           27
                                                                              APPENDIX 4
                   ACRONYMS USED IN THE REPORT



BD          Brokered Deposit
DSC         Division of Supervision and Consumer Protection
FDI         Federal Deposit Insurance
RO          Regional Office
ROMIG       Regional Office Management Information Group
SOI         Summary of Investigation
ViSION AT   Virtual Supervisory Information on the Net Application Tracking
WO          Washington Office




                                       28
